C@OCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No.

KEVIN LAMPKIN; STEPHEN MILLER, individually
and on behalf of all others similarly situated;
JOE BROWN; FRANK GITTESS; TERRY NELSON;
DIANNE SWIBER; ROBERT FERRELL,
Petitioners,
v.

UBS FINANCIAL SERVICES, INCORPORATED;
formerly known as UBS Painewebber, Incorporated;
UBS SECURITIES, L.L.C., formerly known
as UBS Warburg, L.L.C.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI and APPENDIX VOLS I-II in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5261 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . Y 4
State of Nebraska . LE , /
My Commission Expires Nov 24, 2020 :

Notary Public Affiant

 

 

38262
